No. 20-193
CALVIN MCMILLAN,
Petitioner,

v.
STATE OF ALABAMA,

Respondent.
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that, on this 21st day of September, 2020, in accordance
with U.S. Supreme Court Rule 29.5(c), a copy of the Brief of Amici Curiae Former
Alabama and Florida Circuit Court Judges In Support of Petitioner Calvin
McMillan’s Petition for Writ of Certiorari has been served on the following:
Edmund Gerard LaCour Jr.
Office of the Attorney General
501 Washington Ave
Montgomery, AL 36130
edmund.lacour@alabamaag.gov
Counsel for Respondent

Michael Boland Admirand
Southern Center for Human Rights
60 Walton Street NW
Atlanta, GA 30303
madmirand@schr.org
Counsel or Petitioner

Daniel Scott Harawa
NAACP Legal Defense & Educational Fund
700 14th Street NW, Suite 600
Washington, DC 20005
dharawa@naacpldf.org
Counsel for NAACP Legal Defense &
Educational Fund, Inc.

G. Ben Cohen
1024 Elysian Fields
New Orleans, LA. 70117
bcohen@defendla.org
Counsel for The Promise Of Justice
Initiative

James Connolly Dugan
Willkie Farr & Gallagher, LLP
787 Seventh Avenue
New York, NY 10019
jdugan@willkie.com
Counsel for The Innocence Project

